No.

21-5^17

In the

Supreme Court, U S.
FILED

OCT 0 7 2021
OFFICE OF THE CLERK

£$xtpxzme (ftourt of tl\z ^Anitzb ^Binizz
Kevin K. Tung, on behalf of himself and all
OTHERS SIMILARLY SITUATED, PETITIONER
v.
Superior Court of New Jersey; Stuart Rabner,
CHIEF JUSTICE OF THE SUPREME COURTOF NEW JERSEY;

Glenn A. Grant, acting administrative director
OF THE NEW JERSEY COURTS; CARMEN MESSANO,
PRESIDING JUDGE FOR ADMINISTRATION FOR THE
APPELLATE DIVISION; JOHN/JANE DOE, ADMINISTRATORS
OF THE NEW JERSEY SUPERIOR COURT
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

3
'•c
N

PETITION FOR WRIT OF CERTIORARI
Kevin K. Tung, Esq.,
Pro Se
Queens Crossing Business
Center
180-20 88th Avenue,
Suite 3D
Flushing, NY 11353
ktung@kktlawfirm.com
(718) 939-8033
CURRY & TAYLOR ♦ (202) 350-9073

%

QUESTIONS PRESENTED
The Third Circuit affirmed the New Jersey
District Court’s decision that dismissed the Petitioner
Kevin Tung, Esq.'s violation of the constitutional due
process claims against the Superior Court of New Jersey
and its administrators in their official duties or capacities
in charge of managing and supervising of the
administration of the Superior Court of New Jersey on
the grounds that (1) sovereign immunity shields the
defendants and (2) Ex parte Young's exception do not
apply to the instant case.
Four questions are presented:
1.
Whether the claims of an Officer of the
Court with the New Jersey Judiciary System are barred
by the Eleventh Amendment when the Officer of the
Court’s claims allege that the New Jersey‘Judiciary
System violated his constitutional right to due process.
2.
Whether Petitioner seeks the type of
forward-looking relief under Bowers v. NCAA that
would make the exception in Ex parte Young applicable
to the case at hand when the relief sought by the
Petitioner requests that the administrators of the New
Jersey Judiciary System implement pertinent
procedural due process procedures required by federal
law to protect Officers of the Couz’t like the Petitioner
and other similarly situated attorneys from being
maliciously prosecuted as a result of fraud upon the court
when the attorney is not a party to the action and is not
given an opportunity to defend himself.

n
3.
Whether the ongoing investigation and
prosecution by the Office of Attorney Ethics into the
Petitioner’s alleged misconducts constitutes an ongoing
violation-of federal law rather than an ongoing effect,
thereby making the Ex parte Young exception
applicable to the instant case, when said 1 Office of
Attorney Ethics investigation and prosecution resulted
from the Superior Court of New Jersey’s violation of the
Petitioner’s constitutional right to due process.
4.
Whether
New
Jersey . Judiciary’s
treatment of its officers of the court violated the equal
protection clause of the constitution when minority
attorneys are presumed dishonest and no due process is
afforded to protect them, while attorneys deeply
connected with the judiciary systems can walk away
with no punishment after openly admitting to
committing fraud upon the court, which had caused the
minority attorney to suffer harms relating to his good
name, professional reputation, honor, or integrity in his
legal profession.

m
TABLE OF CONTENTS
QUESTIONS PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES

1

n
111

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW,

1

JURISDICTION

1

RELEVANT PROVISIONS INVOLVED

1

STATEMENT

1

THE DISTRICT COURT DECISION BY HON.
WOLFSON............................................................

6

THE DISTRICT COURT DECISION BY HON.
SHIPP...................................................................

7

THE THIRD CIRCUIT DECISION

7

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

13

APPENDIX
THE OPINION OF THE THIRD CIRCUIT
(7/28/2021).......................................................

la

THE MEMORANDUM OPINION OF DISTRICT
COURT OF NEW JERSEY (11/10/2020)...............

5a

i

IV

THE ORDER OF THE DISTRICT COURT OF NEW
JERSEY (11/10/2020)
21a
THE LETTER ORDER OF DISTRICT COURT OF
NEW JERSEY (1/19/2020)....................!................... 23a
THE OPINION OF THE DISTRICT COURT OF NEW
JERSEY (11/26/2019)
26a
THE JUDGMENT OF THIRD CIRCUIT (7/28/2021)39a
THE ORDER OF THE THIRD CIRCUIT (8/27/2021)
41a
THE ORDER OF THE DISTRICT COURT OF NEW
JERSEY (11/26/2019)
43a

V

TABLE OF AUTHORITIES
Cases
Am. Exp. Travel Related Servs. Co. v. SidamonEristoff, 755 F. Supp. 2d 556 (D.N J. 2010), affd sub
nom. Am. Exp. Travel Related Servs., Inc. v.
Sidamon-Eristoff, 669 F.3d 359 (3d Cir. 2012)..........

14

Bowers v. NCAA, 475 F.3d 524 (3rd Cir. 2007)

.passim

Ex parte Garland, 71 U.S. (4 Wall.) 333 (1866)

2,16,17

Ex parte Young, 209 U.S. 123,155-56 (1908)

19

Goldstein v. St. Luke’s Roosevelt Hosp. Center, 430
F.3d 106,112 (2nd Cir. 2005)...................................... 7,26,27
Seminole Tribe of Fla. v. Florida, 517 U.S. 44,76
(1996)...................................................................
United States v. Talao, 222 F.3d 1133,1137-38 (9th
Cir. 2000)...............................................................
Walker v. Mesquite Tex., 129 F.3d 831,832-833 (5th
Cir. 1997)................................................................

19
6,25
6

Statutes
28 U.S.C.§1254

1

Federal Rules of Civil Procedure, Rule 12(b)(1)

13,14

New Jersey Court Rule 4:33.

12,13

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully petitions for a writ of
certiorari to review the opinion of the United States
Court of Appeals for the Third Circuit in this case.
OPINIONS BELOW
The United States District Court for the District
of New Jersey’s opinion (per Wolfson, Chief Judge)
granting Defendant Superior Court of New Jersey’s
motion to dismiss (Appendix (“Pet. App.”) 26a-38a) is
not otherwise published. The United States District
Court for the District of New Jersey’s opinion (per
Shipp, District Judge) granting Defendants’ motion to
dismiss (Pet. App. 5a-22a) is not otherwise published.
The opinion of the United States Court of Appeals for
the Third Circuit (per Ambro, Jordan, and Bibas,
Circuit Judges) affirming the District Court’s dismissal
(Pet. App. la-4a) is not otherwise published. The Order
of the Third Circuit denying rehearing and rehearing
en banc (Pet. App. 43a-42a) is not otherwise published.
JURISDICTION
The Third Circuit entered its judgment on July
28, 2021. (Pet. App. 39a-40a) A timely petition for panel
rehearing was denied on August 27, 2021. Petitioner
invokes this Court’s jurisdiction under 28
U.S.C.§1254(1).
RELEVANT PROVISIONS INVOLVED
The Fifth Amendment of the United States
Constitution provides, in pertinent part:

2

...[N]or [any person] be deprived of life, liberty,
or property, without due process of law;...
The Eleventh Amendment of the United States
Constitution provides:
The Judicial power of the United States shall not
be construed to extend to any suit in law or
equity, commenced or prosecuted against one of
the United States by Citizens of another State,
or by Citizen or Subjects of any Foreign State.
The Fourteenth Amendment of the United
States Constitution provides, in pertinent part:
...[N]or shall any State deprive any person of life
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
STATEMENT
Petitioner, Kevin K. Tung, Esq., is a licensed
attorney in the State of New Jersey and an Officer of
the Court, thereby he is a part of the New Jersey
Judiciary systems pursuant to Ex parte Garland, 71
U.S. (4 Wall.) 333 (1866). In Ex parte Garland, 71 U.S.
(4 Wall.) 333 (1866), the Supreme Court of the United
States ruled that counselors are officers of court.
Officers of Court have legal and ethical obligations.
They are tasked to participate to the best of their
ability in the functioning of the judicial system, as a
whole, in order to forge justice out of the application of
the law while engaging in the simultaneous pursuit of
the legitimate interests of all parties and the general

3
good of society. As officers of the court, lawyers have
an absolute ethical duty to tell judges the truth. This
means that an officer of the court must always avoid
dishonesty, must never be evasive when offering
reasons as to why the attorney and/or his/her client is
not appearing, and must never be dishonest or evasive
regarding the location of documents and other matters
related to the conduct of the courts. Therefore, if the
Court accuses an officer of the court of being
dishonest with the court during the performance
of his/her duties throughout the proceedings, then
the officer of the court must be afforded the
pertinent substantive and procedural due process
rights to defend himself prior to the court accusing
the officer of dishonesty rendering any decisions
or opinions against that officer.
In this instant case, Petitioner Tung, a non-party
attorney, was framed by the opposing counsel, James
Plaisted, who openly admitted to the investigator from
Office of Attorney Ethics that he committed a fraud
upon the court. In 2019, attorney James Plaisted
appeared before the Disciplinary Investigator Susan R.
Perry-Slay and stated on the record that he had made a
“misstatement” to Judge Weisberg in the hearing in the
matrimonial action Fou v. Fou. James Plaisted further
stated to Disciplinary Investigator Susan R. Perry Slay
that “he should have said... and he should have said ...”
before the investigator. James Plaisted’s fraud upon the
court resulted in the unconstitutional decision and
opinion of Judge Barry A. Weisberg of the Superior
Court New Jersey dated September 12, 2012 (Docket
No.: FM-12-1685-09E) and the decision and opinion of
the Appellate Division of the Superior Court of New
Jersey dated July 21,2016 (Docket No.: A-1569-14T3) in

s

4
the matrimonial action Fou v. Fou. Both courts
rendered decisions and opinions containing
judicial criticisms against Petitioner Tung in the
absence of Petitioner Tung’s participation in the
proceedings. These Judicial criticisms rose to the
level of a public reprimand and must therefore be
considered as a sanction. Since these judicial
criticisms rose to the level of a public reprimand
constituting a sanction against Petitioner Tung,
due process must have been afforded to Petitioner
Tung before the Court rendered such an opinion or
decision against him. See, Bowers v. NCAA, 475 F.3d
524 (3nl Cir. 2007). (The judicial criticism against an
attorney in an opinion or order rising to the level
of a public reprimand is a sanction, thereby due
process must be given before rendering such an
opinion.) If Petitioner Tung was afforded an
opportunity to participate the proceeding, he would
have had the opportunity to defend himself against the
“misstatements’'’ made by the attorney James Plaisted
and the outcome of the proceeding would have been
totally different. However, the end result was that
Petitioner Tung was framed by James Plaisted’s fraud
upon the court.
After the hearing, Judge Weisberg rendered the
decision. The essential basis for this decision regarding
Petitioner* Tung’s alleged unethical representation of
Mi's. Fou was that Mr. Tung failed to incorporate all the
terms in the Chinese Agreements into the English
Property Settlement Agreement (“PSA”) which was
prepared by Mr*. Tung. Judge Weisberg condemned Mr*.
Tung in his decision, stating that the failure- to
incorporate Chinese Agreements into the English PSA
“was a knowing concealment of a relevant fact,” which

5
“rises to the level of a fraud upon the Court”. This
decision rendered by Judge Weisberg was a direct
result of the false statements made by attorney James
Plaisted against Petitioner Tung in the absence of
Petitioner Tung's participation in the proceeding. Had
Petitioner Tung been afforded the opportunity to
participate in the proceedings where he was criticized
as a result of James Plaisted’s fraud, he could have
explained that the Chinese Agreements that he
allegedly failed to incorporate were never disclosed to
him because Janet Fou was attempting to commit
Medicaid fraud and did not want to disclose all of her
assets so that her attempt to commit Medicaid fraud
would not be discovered. However, Petitioner Tung
was denied his constitutional right to due process and
was not afforded an opportunity to participate in the
proceedings where judicial criticisms rising to the level
of a public reprimand were levied against him.
Judge Weisberg’s opinion has had a significant
adverse effect upon Petitioner Tung in all subsequent
court proceedings against Petitioner Tung, such as in
the Appellate Division, which also rendered an opinion
against Petitioner Tung. The clerk of the Appellate
Division even referred Petitioner Tung to Office of
Attorney Ethics for investigation and prosecution
before giving Petitioner Tung an opportunity to rebut
the false facts that were levied against him by the
attorney James Plaisted. This Office of Attorney Ethics
investigation was a direct result of James Plaisted’s
fraud upon the court as well as the Superior Court of
New Jersey’s denial of Petitioner Tung’s constitutional
right to due process. This Office of Attorney Ethics
investigation continues to this day and it is a continuing
violation of federal law as long as the Office of Attorney

6
Ethics investigation and prosecution continues.
Petitioner Tung was again not notified and was not
given an opportunity to defend himself with regards to
the allegations levied against him in Appellate
Division’s proceedings,
Said investigation and
prosecution of Petitioner Tung by Office of Attorney
Ethics is stayed pending the outcome of the Courts’
determination whether Petitioner Tung’s due process
rights were violated. Petitioner Tung was not afforded
an opportunity to file a brief on his behalf in the
Appellate Division. The conclusions reached in the
opinion rendered by the Appellate Division against
Petitioner Tung for the
alleged unethical
representation of Mrs. Fou in her uncontested divorce
matter and the referral to the Office of Attorney Ethics
rose to the level of a public reprimand and are
considered by the coui*ts to be a sanction. Petitioner
Tung, an Asian minority attorney, was presumed
dishonest by the New Jersey Judiciary, who concluded
that no due process was needed before referring him to
Office of Attorney Ethics.
Many Circuit Courts view that the attorney
referral to the disciplinary committees amounts to a
sanction. See, Walker v. Mesquite Tex., 129 F.3d 831,
832-833 (5th Cir.
1997) (“The importance of an
attorney’s professional reputation, and the imperative
to defend it when necessary, obviates the need for a
finding of monetary liability or other punishment as a
requisite for the appeal of a court order finding
professional misconduct.”), United States v. Talao, 222
F.3d 1133,1137-38 (9th Cir. 2000) (Appellate jurisdiction
was proper where the district court found violation of
specific rule of professional conduct, an action which
“carries consequences similar to the consequences of a

7

reprimand”) In the Second Circuit, the Court held “that
we have jurisdiction over Goldstein's appeal of the
referral to the disciplinary committees. The referral
was included in the court’s judgment and was to be
implemented by the Clerk of Court. It was in the
nature of a sanction. Even though appellant was not in
any way foreclosed from explaining or justifying his
actions to the disciplinary authorities or from arguing
that no disciplinary action was appropriate, such an
order has reputational consequences and potential costs
in responding to the referral.” “Therefore, the court’s
refeiTal amounted to much more than implied criticism,
and, like other sanctions, we deem it review^able.”
Goldstein v. St. Luke’s Roosevelt Hosp. Center, 430
F.3d 106,112 (2n<l Cir. 2005)
All of the false accusations against the Petitioner
Tung could have been avoided if there were
appropriate pertinent due process procedures
implemented as outlined in Bowers v. NCAA, 475 F.3d
524 (3rd Cir. 2007). The lack of such pertinent due
process procedures in the Superior Court of New
Jersey administrative system is extremely evident, as
more than ten (10) judges in the Superior Court of New
Jersey handled the Fou v. Fou matters and none of
these ten (10) judges were alerted that the decisions
and opinions rendered by the Courts against the nonparty attorney were in violation of the non-party
attorney’s due process rights. As a result, Petitioner
Tung has suffered great harm in all subsequent
proceedings against him as well as in his daily practice.
For example, one of the opposing counsels in an
unrelated litigation case attached Judge Weisberg’s
opinion to convince the court that Petitioner Tung is
not a trustworthy attorney. Petitioner Tung does not

8

wish to see these same wrongs be repeated in the
future against himself and other similarly situated
attorneys because society as a whole will be forced to
suffer the consequences resulting from the Court's
failure to implement said due process rights
contemplated by the founding Fathers of this country.
Furthermore, the Investigative Report of the
Office of Attorney Ethics of James Plaisted, Esq. sends
a clear and important message to the public that an
attorney lying to court is tolerated in the New Jersey
Judiciary systems. Mr. Plaisted did not receive any
punishment, not even a modest admonishment simply
stating, “Do not do it again.” The official reasoning was
that there was no clear and convincing evidence. When
the wrongdoer has already admitted making
misstatements to the court, what else could possibly be
required to prove the case with clear and convincing
evidence? Meanwhile, Petitioner Tung was criticized,
sanctioned, and referred to the Office of Attorney
Ethics for discipline as a result of the fraudulent actions
of James Plaisted and Janet Fou. Publicly available
documents may provide insight into how such an
injustice has occurred. Mr. Plaisted works for a law
film by the name of Pashman Stein Walder Hayden,
P.C. The founders of the Pashman law firm are deeply
connected with the New Jersey Judiciary systems in
several ways. Mr. Louis Pashman was the former
Chair of the Disciplinary Review Board of the Supreme
Court of New Jersey. Mr. Pashman worked closely with
Charles Centinaro, Director of the Office of Attorney
Ethics, who is supervising the investigation and
prosecution of Mr. Tung and Mr. Plaisted’s alleged
ethics violations. The rest of the founding partners are
all retired judges and law clerks from Supreme Court of

9
New Jersey and Superior Court of New Jersey. On the
other hand, Mr. Tung, a minority Asian attorney and an
out-of-state attorney, has no connection with the New
Jersey Judiciary other than being admitted to practice
law in the State of New Jersey. These improper
connections have led to the issues presented in the
instant matter at hand. Currently in the New Jersey
Judiciary system, connected attorneys can openly admit
to committing fraud upon the court without facing any
consequences whatsoever. On the other hand,
Petitioner Tung, who is an out-of-state minority Asian
attorney, must face the consequences resulting from
James Plaisted’s actual fraud upon the court without
even being afforded an opportunity to defend himself.
Unfortunately, it may very well be that the New Jersey
Judiciary system is protecting the Pashman Law firm
and its attorneys due to their personal connections and
relationships by denying Petitioner Tung his
constitutional light to due process.
One only needs to look at the Pashman Stein
Walder Hayden P.C. website to know that something is
not right within the New Jersey Judiciary System. On
the website, it is actually listed as a point of pride how
the Pashman law firm has regularly represented judges
over the years when faced with their own legal
problems. The website states in relevant part, “We
take great pride in the fact that other leading law firms,
judges and lawyers have repeatedly turned to us over
the years when faced with their own legal problems.”
This statement contained on Pashman Stein Walder
Hayden P.C.’s website raises the question, why have
New Jersey judges needed to be regularly represented
by private law firms in their own personal legal matters
over the years? The Pashman law firm further

10
advertises their connection with the New Jersey
Judiciary system when they state, “Judges know us
well, for our insight, our thoughtful analysis, and our
creativity.” “With a deep bench of carefully selected
lawyers that includes a retired New Jersey State
Supreme Court justice, a retired Presiding judge of the
Appellate Division of the New Jesey Superior Court, a
retired New Jersey Superior Court judge, ..., it is no
wonder why our firm is admired and respected by our
peers.” These connections are in plain sight for all to
see. Meanwhile, Petitioner Tung is an out-of-state
Minority Asian attorney and has no such connections
with the New Jersey judiciary system.
To be clear, Petitioner Tung in this appeal does
not allege that any wrongdoing is discovered on the
part of the Pashman law firm other than the actions of
Mr. Plaisted, who has already admitted to making
misstatements to Judge Weisberg. Judge Weisberg
then rendered an unconstitutional decision against
Petitioner Tung based on the fraud upon the court
committed by Mr. Plaisted. The point raised by the
Petitioner here is that the court administrators of the
New Jersey Judiciary should be concerned about
creating a justice system that can be equally accessed
by all with clear due process procedures implemented
to eradicate any possibility of unfairness in handling the
administration of justice. In the instant matter at hand,
the New Jersey Judiciary has presumed that Minority
out-of-state attorneys are dishonest and are not worthy
of the constitutional protections afforded by pertinent
due process procedures. Situations such as this can no
longer continue, especially while New Jersey attorneys
deeply connected with the judiciary system can walk
away with no punishment after they have openly

11
admitted that they have committed fraud upon the
court.
To achieve the goal of fairness in the
administration of justice, the court administrators of
New Jersey Judiciary shall implement pertinent due
process procedures to ensure that all have equal access
to the justice system. Whenever conflicts of interest
arise, the appropriate procedures shall be implemented
to avoid such a conflict of interest. In the case at bar,
the New Jersey Judiciary shall implement due process
procedures to safe guard the officers of the court, such
as, the Petitioner or attorneys similarly situated in the
future from being maliciously prosecuted by fraud upon
the court where Petitioner or attorneys similarly
situated are not a party to the action and are not given
opportunity to defend themselves. When the Director
of the Office of Attorney Ethics overseeing the
investigation of an attorney's alleged wrongdoings in a
case has a relationship with the partners of a law firm
which operates as the opposing counsel in the same1
malpractice case, the investigation of wrongdoing of an
employee of the law firm should be conducted by an
independent committee. The failure to do so has severe
consequences as can be seen in the instant matter at
hand. For example, Petitioner Tung’s law firm was
forced to file for bankruptcy to avoid the immediate
enforcement of a wrongful judgment. The professional
reputations of Petitioner Tung and his law firm have
been impaired and damaged.
The New Jersey
Judiciary's position that Petitioner Tung was able to
defend himself in the malpractice action and in the
Office of Attorney Ethics’ investigation and prosecution
later after an unfair decision was rendered against
Petitioner Tung in the absence of participation by the
Petitioner is in contravene with the current due process
law. The disparity in the treatment of Minority

12
attorneys with no connections with the New Jersey
Judiciary System in comparison to the treatment of
attorneys with deep connections with the New Jersey
Judiciary System demonstrated that the New Jersey
Judiciary System has a systematic policy, that violates
the equal protection clause of the constitution of the
United States.
In -order to correct the wrongs committed upon
the Petitioner, Petitioner Tung' made motions to
intervene in both the Appellate Division of the Superior
Court of New Jersey and the Superior Court,
Middlesex County in Fou v. Fou matrimonial matter
attempting to set aside the unlawful decisions or
opinions against Petitioner, because Petitioner was not
a party. Petitioner was never served with the decision
or opinion of Judge Weisberg. The Appellate Division
first denied the access for Petitioner Tung to intervene
without legal analysis and explanations. In a recent
decision, the Appellate Division upheld the decision
rendered .by the Superior Court of New Jersey,
Middlesex County on the ground that the Petitioner
Tung does not have an interest in the Fou v. Fou
matter to intervene.
The Appellate Division affirmed the Trial
Court’s decision to deny Petitioner Tung’s motion to
intervene on the ground that “Tung does not claim ‘an
interest relating to the property or transaction which is
the subject of the transaction,’ as required by Rule 4:331. Namely, Tung’s ability to practice law in New Jersey
is unrelated to the Fou’s original divorce proceeding.”
Basically, the Appellate Division narrowly interpreted
the requirement in Rule 4:33-1 to mean that the
interest must be related to the division of marital

13
properties in the Fou v. Fou matrimonial action. The
Appellate Division opined that, since Tung’s property
interest to practice law in New Jersey has nothing to do
with the division of the Fou's matrimonial action and
Tung's claims are not against plaintiff or defendant in
the Fou action because they involve the actions of the
trial judge, the intervenor Tung failed to meet the first
and most fundamental requirement of Rule 4:33-1.
Petitioner Tung appealed to the Supreme Court of New
Jersey, which denied the Petition for Certification.
Petitioner Tung filed a petition for a writ of certiorari
with the Supreme Court of the United States. The said
petition is still pending under Case No. 20-1711.
THE DISTRICT COURT DECISION BY HON.
WOLFSON
After the state courts denied Petitioner Tung’s
access 'to the state courts to correct the wrongs
committed against him, Petitioner Tung commenced a
federal action in the district court, alleging that the
Superior Court of New Jersey violated his Fourteenth
Amendment due process rights during a series of legal
disputes
stemming
from
Petitioner
Tung’s
representation of a client in a divorce action. Defendant
moves to dismiss Petitioner Tung’s claims under
Federal Rule of Civil Procedure 12(b)(1) based on
Eleventh Amendment Sovereign Immunity, the
Rooker-Feldman doctrine, and the Younger abstention
doctrine. In an opinion, Chief Judge Wolfson of the
District Court of New Jersey granted Defendant's
motion to dismiss. (26a-38a)
However, the Chief Judge Wolfson pointed out
in her opinion that Petitioner Tung “also seeks to enjoin

14
the ‘Presiding Administration Judge of the Superior
Court of New Jersey’ to implement pertinent due
process procedures to protect non-party attorneys like
Plaintiff from criticism in an opinion or order, without
due process. In that regard, it may be that
Plaintiffs potential amendment, regardless of the
merits, seeks the type of forward-looking relief
permitted under Young? See Am. Exp. Travel
Related Sei'vs. Co. v. Sidamon-Enstoff] 755 F. Supp. 2d
556, 568 (D.N.J. 2010), qffd sub nom. Am. Exp. Travel
Related Servs.} Inc. v. Sidamon-Eristoff, 669 F.3d 359
(3d Cir. 2012) (“it has long been established by the
Supreme Court that the Eleventh Amendment does not
preclude lawsuits against state officials in their official
capacities to enjoin violations of federal law even where
the remedy would enjoin enforcement and
implementation of an official state policy”)- In this
regard, Chief Judge Wolfson permitted Petitioner Tung
thirty days to file a motion for leave to file an amended
complaint.
(36a-37a) Petitioner Tung thereafter
amended the complaint, naming the Chief Justice of the
New Jersey Supreme Court and other Presiding
Judges in their official capacity for the administration
of the Superior Court of New Jersey as Defendants.
(23a-24a)
THE DISTRICT COURT DECISION BY
HON. SHIPP
Defendants moved to dismiss the Amended
Complaint on the same grounds under Federal Rule of
Civil Procedure 12(b)(1) based on Eleventh
Amendment Sovereign Immunity, the RookerFeldman doctrine, and the Younger abstention doctrine.
(10a) On November 10, 2020, District Court Judge

15
Shipp granted the motion to dismiss, stating that the
Ex parte Young Exception to Eleventh Amendment
Immunity does not apply to Petitioner Tung’s claims,
because Tung does not allege a violation of federal law.
Nor did Tung allege that a violation of federal law is
continuing. Therefore, Petitioner Tung’s due process
claims are barred by the Eleventh Amendment and do
not properly fall within Ex parte Young1 s exception to
Defendants’ immunity to suit. (20a)
THE THIRD CIRCUIT DECISION
Petitioner Tung appealed the decision of Judge
Shipp to the Third Circuit. On July 28, 2021, the Court
of Appeals for the Third Circuit affirmed the District
Court’s decision on the ground that Petitioner Tung
failed to allege the Defendants continue to violate his
due process rights. (2a) The Third Circuit concluded
that “[t]he judge criticized him years ago. Any violation
is over and done.” (3a) The Third Circuit, however,
overlooked that the Office of Attorney Ethics’
investigation and prosecution, which resulted from the
original unconstitutional court decision of Judge
Weisberg, is currently stayed pending a determination
by the Court regarding whether or not Petitioner
Tung’s constitutional right to due process was violated.
(38a)
This petition for a writ of certiorari now follows.
REASONS FOR GRANTING THE PETITION
The petition for writ of certiorari should be
granted for the following reasons:

16
First, the Third Circuit recognized in its opinion
in the topic sentence: “Not every wrong has a federal
remedy.” This is correct for the instant case. This case
should have been resolved by the State Court
proceedings. However, as demonstrated in the related
petition for a writ of certiorari pending before the
Supreme Court of the United States under Docket No.
20-1711, the New Jersey Judiciary denied Petitioner
Tung access to the State Court to intervene. After
Petitioner Tung had exhausted state court’s remedies,
Tung was forced to commence the federal action for
readdressing the wrong committed against him.
Surprisingly, the New Jersey Judiciary, now in federal
court, asserted the defense that the Eleventh
Amendment shields the Defendants. The New Jersey
Judiciary's act of blocking Petitioner Tung’s access to
the State court for resolution and while also now
asserting sovereign immunity defense has created a
situation where there is a clear wrong but no remedy. •

r

Second, the Courts below ducked an issue raised
by the Petitioner Tung regarding whether the
Eleventh Amendment bars Petitioner’s due process
claims against the New Jersey Judiciary. Petitioner is a
citizen of a foreign state but more importantly he is also
an officer of the court of the New Jersey Judiciary. As
an officer of the court, Petitioner Tung is a part of the
New Jersey Judiciary systems pursuant to Ex parte
Garland,, 71 U.S. (4 Wall.) 333 (1866). (41a at 113 and
67a at 192) In Ex parte Garland, 71 U.S. (4 Wall.) 333
(1866), the Supreme Court of the United States ruled
that counselors are officers of court. Specifically, the
Supreme Court held in Ex parte Garland that:

17
Attorneys and counsellors are not officers of the
United States; they are officers of the court,
admitted as such by its order upon evidence of
their possessing sufficient legal learning and fair
private character. The order of admission is the
judgment of the court that the parties possess
the requisite qualifications and are entitled to
appear as attorneys and counsellors and conduct
causes therein. From its entry the parties
become officers of the court, and are responsible
to it for professional misconduct. They hold their
office during good behavior, and can only be
deprived of it for misconduct ascertained and
declared by the judgment of the court after
opportunity to be heard has been afforded.
Ex parte Garland, 71 U.S. (4 Wall.) 333, 374
(1867).
The Supreme Court made Clear in Garland that
officers of the court have legal and ethical obligations.
They are tasked to participate, to the best of their
ability, in the functioning of the judicial system as a
whole in order to forge justice out of the application of
the law while simultaneously pursuing the legitimate
interests of all parties and the general good of society.
As officers of the court, lawyers have an absolute
ethical duty to tell judges the truth, including avoiding
dishonesty or evasion about (i) reasons the attorney or
his/her client is not appearing, (ii) the location of
documents and (iii) other matters related to conduct of
the courts. In exchange for* upholding these honor-able
obligations to the Court, officer’s of the Court must
always be afforded an opportunity to be heard should
they ever be accused of dishonesty or fraud upon the
court by the court they work for. In other words, if the

18
Court accuses an officer of the court of being
dishonest during the performance of his duty in
the court proceedings, then the officer of the court
must be , given pertinent. and substantive
procedural due process rights to defend himself
before the court renders any decisions or opinions
against that officer of the court.
Furthermore, throughout all of the proceedings
relevant to this matter, all Petitioner Tung has been
asking for is to be afforded his long overdue due
process rights recognized by the Third Circuit in
Boivers v. NCAA. Thirteen years ago, the Third Circuit
in Bowel's reversed an order entered by the District
Court of New Jersey, which granted the motion for
sanctions against the plaintiff and plaintiffs counsel, on
the ground that the District Court violated the
procedural due process rights and liberty interests of
attorneys for the plaintiff. In Bowers, this Court niled
that, when a judicial criticism contained in a decision or
opinion rises to the level of a public reprimand against a
non-party attorney, the non-party attorney must be
given an opportunity to defend himself before
rendering such opinions and decision against the
non-party. See, Bowers v. NCAA, 475 F.3d 524 (3rd Cir.
2007). Now however, the panel presiding over the
instant action seeks to either ignore or overrule the 3rd
Circuit's own decision in Bowers v. NCAA by refusing'
to acknowledge that Petitioner Tung's constitutional
due process rights were violated when he was not
afforded an opportunity to defend himself as an officer
of the court first before being sanctioned when he was
referred to the Office of Attorney Ethics.

19
Petitioner Tung simply asks this court to
recognize the established case-law by following the 3rd
Circuit’s ruling in Bowers v. NCAA, in addition to the
Supreme Court’s ruling in Ex parte Garland, by
acknowledging that Petitioner Tung is constitutionally
entitled to be afforded an opportunity to defend himself
before a negative ruling constituting a sanction against
him is rendered. It is truly shameful to our judicial
system that Petitioner Tung is forced to fight so
vigorously to vindicate such a basic and fundamental
constitutional right that is unequivocally recognized by
both the Supreme Court and the 3rd Circuit. Should the
3rd Circuit continue to shield the Defendants from the
consequences of their unconstitutional actions, they are
sending a clear message that the 3rd Circuit not only
permits unconstitutional actions, but they actively
reward it at the expense of the constitutional rights of
Petitioner Tung and all other attorneys similarly
situated. Therefore, the petition for writ of certiorari
should be granted so that proper guidance will be
provided to the Courts below for once and all whether
it prioritizes upholding the constitutional rights of its
officers of the court or if it prioritizes rewarding
attorneys with improper connections to the New Jersey
Judiciary system who openly commit fraud upon the
court.
Third, the Third Circuit’s decision that the
exception laid out by the Supreme Court in Ex parte
Young does not apply to the instant lawsuit was
erroneous because the panel overlooked the fact that
Appellant Tung alleged a continuous ongoing violation
rather than an ongoing effect. The Third Circuit’s
decision merely offers conclusory justifications for
affirming the district court’s decision. For example, in

20

its decision, the panel merely states that “a ‘narrow
exception' [to the Eleventh Amendment] lets Plaintiffs
sue state officials to stop ongoing violations of federal
law.” Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 76
(1996); See Ex paite Young, 209 U.S. 123,155-56 (1908).
The panel then goes on to state in conclusory fashion
that “[T]his case does not fit the exception. The Judge
criticized him [Appellant Tung] years ago. Any
violation is over and done with.” Lastly, the panel
opines that “[H]e [Appellant Tung] is suing New Jersey
officials in their official capacities, so he must allege
that they continue to violate his lights. Because he has
not done so, we [the panel] will affirm the District
Court’s dismissal.”
This conclusory explanation, in addition to it
lacking any kind of meaningful analysis, is entirely
erroneous in that it completely ignores and overlooks
the fact that Petitioner Tung unequivocally did allege
that the Defendants to this action continue to violate
his rights. Specifically, the panel’s decision ignores the
fact that Petitioner Tung alleged that he is currently
subject to an ongoing Office of Attorney Ethics
investigation and prosecution which is presently stayed
at this moment pending the Courts’ determination
regarding whether Petitioner Tung’s due process rights
were violated. Petitioner Tung’s Office of Attorney
Ethics investigation and prosecution is a direct result of
the referral by the Appellate Division based upon the
affirming of Judge Weisberg’s unconstitutional
decision. Therefore, Judge Weisberg’s decision was not
just a one-time, past violation. Rather, Petitioner
Tung's rights continue to be violated by Defendants
because these state officials continue to take actions

21
against
Petitioner
Tung
based
upon
unconstitutional decision of Judge Weisberg.

the

Furthermore, the Third Circuit should have
directed the Chief Justice of the Supreme Court, which
directly oversees the operations of the Office of
Attorney Ethics, to dismiss the ongoing Office of
Attorney Ethics investigation and prosecution because
this on-going investigation and prosecution is a
continuing violation of Petitioner Tung’s constitutional
due process right. In the alternative, the Third Circuit
must, at a minimum, vacate Judge Weisberg’s
unconstitutional decision to allow Petitioner Tung to
have the opportunity to present his defense before first
rendering a decision and referring Petitioner Tung to
the Office of Attorney Ethics.
Additionally, the Third Circuit’s decision offers a
puzzling hypothetical scenario in an attempt to provide
a justification for its reasoning. For example, the
panel’s decision offers a hypothetical scenario whereby
the panel states, “Imagine that the police
unconstitutionally searched a man’s home, sparking
gossip among his nosy neighbors. They might shun him
for a time, even after he was cleared of all charges. No
one would say that the police continue to search his
home just because his embarrassment endures. So too
here. Even if Tung feels lasting shame, any deprivation
of process ended years ago.”
It must be stated from the outset that the reason
why the panel’s decision uses this hypothetical factual
scenario is because, had the panel analyzed the true
facts of this case, the true facts do not align with their
reasoning. This hypothetical scenario greatly

22

mischaracterizes the events that are the subject of this
action. A more appropriate hypothetical scenario would
have been as follows: Imagine the police
unconstitutionally search a man’s home in search of
narcotics. The police find no evidence of narcotics, yet
somehow, the man whose home was searched finds
himself referred to a mandatory substance
abuse/narcotics anonymous program by a judge without
ever being present in the courtroom. This would have
been a far more accurate and appropriate hypothetical
characterization of the events giving rise to the instant
action.
Furthermore, the Supreme Court’s Ruling in Ex
parte Young declared that, if government officials
attempt to enforce an unconstitutional act, sovereign
immunity does not prevent people that are harmed
from suing those officials in their individual capacity for
injunctive relief. This is because they are not acting on
behalf of the state in this situation. Therefore, the
petition for writ of certiorari should be granted so that
Petitioner Tung might receive an actual substantive
rebuttal of the valid legal arguments raised in this
Petition.
Fourth, the Courts below also ducked an issue
raised by the Petitioner Tung whether the New Jersey
Judiciary system provides a pertinent substantive and
procedural due process procedure to safe-guard nonparty attorneys against improper judicial criticism.
Petitioner seeks in his complaint the exact type of the
forward-looking relief required bv the Court in Ex
parte Young to qualify for the exception to Eleventh
Amendment as Chief Judge Wolfson pointed out in her
opinion when she stated that Petitioner Tung “also

23

seeks to enjoin the Presiding Administration Judge of
the Superior Court of New Jersey’ to implement
pertinent due process procedures to protect non-party
attorneys like Plaintiff from criticism in an opinion or
order, without due process. In that regard, it may be
that Plaintiffs potential amendment, regardless of the
merits, seeks the type of forward-looking relief
permitted under Young ” In other words, Chief Judge
Wolfson has already agreed on the record that
Petitioner Tung seeks the type of forward-looking relief
required by the Court in Ex parte Young to qualify for
the exception to Eleventh Amendment. This fact, in
conjunction with the continuing and ongoing Office of
Attorney Ethics investigation and prosecution of
Petitioner Tung more than warrant that this petition
for writ of certiorari be granted.
Petitioner Tung has since filed an Amended
Complaint, naming judges and court administrators as
Defendants in their individual capacity rather than the
Superior Court of New Jersey itself. (23a-24a) In the
Amended Complaint, Petitioner Tung alleged that
three court officials are responsible for overseeing the
administration of the New Jersey court systems and,
therefore, are responsible for the policies that injured
his constitutional light to substantive and procedural
due process. Petitioner Tung also seeks an injunction
requiring “the New Jersey State Court system[s] to
implement pertinent substantive and procedural due
process procedures” to ensure “plaintiff or attorneys
similarly situated ... [are] given an opportunity to
defend themselves in the future” when matters of
attorney discipline come up in cases where they are not
a party to the action. However, at this point in the
proceedings, the issue still remains regarding whether

24
the New Jersey Judiciary system already has such a
pertinent substantive and procedural due process
procedure in place.
At this point in the proceedings, both the
Defendants and the Courts in their decision have
utterly failed to address this extremely simple issue.
Incredibly, the record to this matter is still devoid of
any showing that the New Jersey Judiciary system
possesses the requisite substantive and procedural due
process procedure that would align with the Third
Circuit's own ruling in Bowen's v. NCAA, 475 F.3d 524
(3rd Cir. 2007) by affording a non-party attorney an
opportunity to be heard before an opinion is rendered
containing a judicial criticism rising to the level of a
public reprimand. Such a failure by this panel is
inexcusable because, as a matter of law, when the
record is devoid of the existence of such a
pertinent substantive and procedural due process
procedure in place, the State has not satisfied a
clear and convincing standard of proof that such a
due process procedure is in place. Clearly, the
panel's decision must be reversed, because Plaintiffs
Amended Complaint, regardless of the merits, seeks
the exact type of forward-looking, prospective relief
permitted under Ex parte Young.
The instant case presents an important issue
concerning the organization of the judiciary system to
provide equal access to judiciary system. The instant
case at hand demonstrated the importance to
implement pertinent and clear due process procedures
to eradicate any possibility of unfairness in handling
administration of justice. The New Jersey Judiciary
cannot automatically assume that minority attorneys

25
are dishonest and not entitled to due process of the law
like everyone else. This is especially so as long as
attorneys deeply connected with the judiciary systems
can walk away with no punishment whatsoever even
after openly admitting to the Office of Attorney Ethics
that they committed fraud upon the court. To achieve
the goal of fairness in administration of justice, New
Jersey judiciary must implement pertinent due process
procedures to ensure that all have equal access to the
justice system. Whenever conflicts of interest arise,
the appropriate procedures shall be implemented to
avoid such a conflict of interest. Only by doing so will
the public’s confidence in justice system be restored
and the integrity of the judiciary systems will be
protected. Therefore, the petition for writ of certiorari
should be granted.
Fifth, in the instant case, the judicial criticisms
against Petitioner Tung were more much than a mere
judicial criticism or admonishment. This is because
Petitioner Tung was referred to Office of Attorney
Ethics for investigation and prosecution by the
Appellate Division of New Jersey Superior Court
without first being afforded an opportunity to present a
defense to the allegations leading to his referral to the
Office of Attorney Ethics. The decision to refer
Petitioner Tung to the Office of Attorney Ethics was
based solely on the “factual” findings against Petitioner
Tung that resulted from James Plaisted’s fraud upon
the court in the absence of Petitioner Tung’s
participation in the process. Many Circuit Courts view
that the attorney referral to the disciplinary
committees amounts to a sanction. See, Walker v.
Mesquite Tex., 129 F.3d 831, 832-833 (5lh Cir. 1997)
(“The importance of an attorney’s professional

26
reputation, and the imperative to defend it when
necessary, obviates the need for a finding of monetary
liability or other punishment as a requisite for the
appeal of a court order finding professional
misconduct.”), United States v. Talao, 222 F.3d 1133,
1137-38 (9th Cir. 2000) (Appellate jurisdiction was
proper where the district court found violation of
specific rule of professional conduct, an action which
“carries consequences similar to the consequences of a
reprimand”)
In the Second Circuit, the Court in Goldstein v.
St. Luke’s Roosevelt Hosp. Center, 430 F.3d 106,112 (2nd
Cir. 2005) held “that we have jurisdiction over
Goldstein's appeal of the referral to the disciplinary
committees. The referral was included in the court’s
judgment and was to be implemented by the Clerk of
Court. It was in the nature of a sanction. Even
though appellant was not in any way foreclosed from
explaining or justifying his actions to the disciplinary
authorities or from arguing that no disciplinary action
was appropriate, such an order has reputational
consequences and potential costs in responding to the
referral.” “Therefore, the court’s referral amounted
to much more than implied criticism, and, like
other sanctions, we deem it reviewable.” Goldstein
v. St. Luke’s Roosevelt Hosp. Center, 430 F.3d 106, 112
(2nd Cir. 2005)
In their Brief, New Jersey Judiciary argued that
Petitioner Tung was referred to the Office of Attorney
Ethics by the Appellate Division. “Obviously, in the
OAE proceedings, Tung could present his arguments
that he did nothing unethical in his representation of
Mrs. Fou. Thus, to the extent that this present suit

27

relies on the notion that Tung has been deprived of the
ability to defend claims that he engaged in any
unethical conduct in representing Mrs. Fou, in violation
of his constitutional rights, such an assertion is
unfounded." New Jersey Judiciary’ proposition is
clearly in contravene with the current due process law.
This is exactly what the other Circuit Courts wanted to
prevent from happening. “Even though appellant was
not in any way foreclosed from explaining or justifying
his actions to the disciplinary authorities or from
arguing that no disciplinary action was appropriate,
such an order has reputational consequences and
potential costs in responding to the referral." Goldstein
v. St. Luke's Roosevelt Hosp. Center, 430 F.3d 106, 112
(2nd Cir. 2005). Since referral to disciplinary authorities
amounts to a sanction, any argument that Petitioner
Tung did not sufficiently plead enough facts to show a
public reprimand constituting a sanction cannot be
taken seriously and must be disregarded.
Both of the above-mentioned unconstitutional
decisions or opinions are still in public domain and
remain uncorrected, which are affecting the
professional reputation of the Petitioner and
additionally violate the liberty interests of the
Petitioner on a daily basis. Said opinion or decision
contains negative judicial criticisms against Petitioner,
a non-party attorney to the matrimonial matter, by
Judge Weisberg in the absence of the participation in
the proceeding by Petitioner. Petitioner was falsely
accused of being dishonest with the court during his
perfonnance of his duty as an officer of court in the
representation of Janet Fou in the uncontested
matrimonial matter. The decision granted Mrs. Fou’s
motion to set aside the divorce judgment and it was

28

based on a false accusation and undisputed fraud upon
the trial court that was committed by the attorneys for
Mrs. Fou. The negative judicial criticism against
Petitioner Tung rose to a level' of a public reprimand,
which is a sanction pursuant to Bowers v. NCAA, 475
F.3d 524 (3rtl Cir. 2007) In Bowers, the Third Circuit
ruled when judicial criticism contained in a decision or
opinion rises to the level of a public reprimand against a
non-party attorney, the non-party attorney must be
given an opportunity to defend himself before
rendering such opinions and decision against the nonparty attorney. The decision of Judge Weisberg falsely
accused Petitioner of being dishonest with the court
this is still affecting Petitioner Tung’s liberty interest
in his profession as a lawyer.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
. Kevin K. Tung, Esq.
Queens Crossing Business Center
136-20 38th Avenue, Suite 3D
Flushing, NY 11354
(718) 939-4633
ktung@kktlavdirm.com

